December 2, 2008

KATHY AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Fiscal Year 2008 Financial Installation Audit –
         Automated Postal Centers (Report Number FF-AR-09-029)

This report presents the results of our financial installation audits of 11 automated postal
centers (APC) judgmentally selected for fiscal year (FY) 2008 (Project Number
08BD004FF000). We conducted this work in support of the audit of the U.S. Postal
Service’s financial statements. Appendix A presents additional information about this
audit.

Conclusion

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records and, generally, the internal controls we examined
were in place and effective at nine of the 11 units audited. However, controls were not
in place and effective at two units and we identified various internal control and
compliance issues in areas such as stamp accountability, security, refunds, and training
at all 11 locations. In this report, we discuss the conditions that occurred at three or
more units. The overall cause for these conditions was that management did not
exercise adequate supervisory oversight and employees stated they were not aware of
the required procedures. When employees do not follow security and accountability
procedures, there is an increased risk of financial loss to the Postal Service. See
Appendix B for a list of sites audited; Appendix C for a summary of the accountabilities
examined at each site; and Appendix D for a detailed analysis of those frequently
reported conditions.

We made recommendations to district management addressing the internal control and
compliance issues at each site. District management’s comments were responsive to
our findings, recommendations, $3,661 in monetary impact, and $134,557 in
non-monetary impact for accountable items at risk. See Appendix B for the monetary
and non-monetary impacts for each site. The actions taken or planned should correct
the issues identified at these installations. Additionally, we made two referrals to the
U.S. Postal Service Office of Inspector General (OIG) Office of Investigations for
situations that warranted further examination.
Fiscal Year 2008 Financial Installation Audit –                                                    FF-AR-09-029
 Automated Postal Centers


Previously Reported Conditions

Of the conditions we identified in at least three units in this report, we have previously
reported on the following:

    •   Units did not complete Postal Service (PS) Form 3369-P, Consigned Credit
        Receipt.

    •   Supervisors did not maintain a PS Form 3368, Stamp Credit Examination
        Record.

    •   Supervisors did not conduct accountability examinations at the proper frequency.

    •   Units did not maintain a log to account for the daily activity of the APC keys.

    •   Units did not secure APC keys in PS Form 3977, Duplicate Key Envelope.

    •   Units did not store the APC stock separate from other accountabilities.

    •   Supervisors did not establish and maintain a folder to track APC
        reimbursements.

In addition, in our FY 2006 audit,1 we reported that Postal Service guidance requires
training for employees at the time of initial APC deployment but does not require
subsequent training. As a result, when a new employee joins a unit and management
assigns APC responsibilities, the employee is not aware of the required procedures.
Management updated Handbook PO-106 in November 20072 to clarify that each APC
location should have a minimum of four trained servicing employees. In this report, we
identified seven units that did not have the proper number of trained employees.

See Appendix E for a highlighted list of the previously reported conditions.

We recommend the Vice President, Retail Operations, in conjunction with the Vice
President, Controller:

1. Develop and implement an action plan to reduce or eliminate the recurring reported
   deficiencies.




1
  Fiscal Year 2006 Financial Installation Audit – Automated Postal Centers (Report Number FF-AR-07-073, dated
January 25, 2007).
2
  Handbook PO-106, Automated Postal Center Program, Section 33, page 17, November 2007.



                                                        2
Fiscal Year 2008 Financial Installation Audit –                              FF-AR-09-029
 Automated Postal Centers


Management’s Comments

Management agreed with our finding and recommendation. By Quarter 2, FY 2009,
management will develop an action plan to reduce or eliminate the recurring
deficiencies and by Quarter 3, FY 2009, will implement this plan. We have included
management’s comments, in their entirety, in Appendix F.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our recommendation and
the corrective action should resolve the issues in the report.

The OIG considers the recommendation significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the follow-
up tracking system until the OIG provides written confirmation that it can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, Director,
Field Financial – West, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:     H. Glen Walker
        J. Ron Poland
        Vincent H. DeVito, Jr.
        Katherine S. Banks




                                                  3
Fiscal Year 2008 Financial Installation Audit –                                 FF-AR-09-029
 Automated Postal Centers



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service implemented the APC program in April 2004 to give customers
convenient access to Postal Service products and services and reduce their waiting
time by diverting transactions that do not require assistance from a sales and services
associate. APC units are customer-friendly kiosks where customers can ship packages,
buy stamps, and verify ZIP Codes. APC units allow associates to focus on transactions
that are more complex and expected to generate more revenue for the Postal Service.

OBJECTIVES, SCOPE, AND METHODOLOGY

The overall objectives of our audit were to determine whether financial transactions of
field operations were reasonably and fairly represented in the accounting records and
whether internal controls were in place and effective.

To accomplish our objectives, we conducted fieldwork during FY 2008. For our
unannounced audits, we judgmentally selected 11 APCs, which reported $2.6 million in
revenue in FY 2007. We traced recorded transactions to and from supporting
documentation and assessed the reliability of computerized data by verifying the
computer records to source documents. We also evaluated whether the internal control
structure over the financial reporting and safeguarding of assets was implemented and
functioning as designed.

We conducted this audit from December 2007 through December 2008 in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to limit audit risk
to a low level that is, in our professional judgment, appropriate for supporting the overall
audit opinion on the financial statements. Those standards also require us to consider
the results of previous engagements and follow up on known significant findings and
recommendations that directly relate to the objectives of the audit. An audit also
includes a sufficient understanding of internal control to plan the audit and determine
the nature, timing, and extent of audit procedures to be performed.

We supported the external auditors in obtaining reasonable assurance about whether
the financial statements are free of material misstatement (whether caused by error or
fraud). Absolute assurance is not attainable because of the nature of audit evidence
and the characteristics of fraud. Therefore, an audit conducted in accordance with
generally accepted government auditing standards may not detect a material
misstatement. However, the external auditors and the OIG are responsible for ensuring
that appropriate Postal Service officials are aware of any significant deficiencies that
come to our attention. We discussed our observations and conclusions with
management on October 30, 2008, and included their comments where appropriate.



                                                  4
Fiscal Year 2008 Financial Installation Audit –                                          FF-AR-09-029
 Automated Postal Centers


Additionally, we provided individual reports to management at each judgmentally
selected site. We traced recorded financial transactions to and from supporting
documentation and assessed the reliability of computerized data by verifying the
computer records to source documents.

PRIOR AUDIT COVERAGE

                                        Final
                      Report
Report Title                           Report      Monetary              Report Results
                      Number
                                        Date        Impact
Fiscal Year         FF-AR-06-127       4/7/2006         N/A   Based on the items we reviewed, financial
2005 Financial                                                transactions were reasonably and fairly
Installation                                                  presented in the accounting records and,
Audits – Self-                                                generally, the internal controls we
Service and                                                   examined were in place and effective.
Automated                                                     However, we identified various internal
Postal Centers                                                control and compliance issues related to
                                                              cash and stamp accountabilities, security,
                                                              vending refunds, APC refunds, spoiled
                                                              variable rate labels, and rejected stamp
                                                              stock at nine APCs.

                                                              Because district management’s
                                                              comments were responsive to our
                                                              findings and recommendations at each
                                                              installation, we did not make a
                                                              recommendation in this report.
Fiscal Year         FF-AR-07-073       1/25/2007        N/A   Based on the items we reviewed, financial
2006 Financial                                                transactions were reasonably and fairly
Installation                                                  presented in the accounting records and,
Audit –                                                       generally, the internal controls we
Automated                                                     examined were in place and effective.
Postal Centers                                                However, there were internal control and
                                                              compliance issues related to stamp
                                                              security and accountability procedures.
                                                              We made recommendations to district
                                                              management addressing the findings at
                                                              each installation. Because their
                                                              comments were responsive to the
                                                              findings and recommendations, we did
                                                              not make a recommendation in this
                                                              report.

                                                              In addition, we identified policy issues
                                                              related to training and designation of
                                                              back-up employees. Because
                                                              management planned to include specific
                                                              guidance on these issues in an updated
                                                              APC handbook, we did not make any
                                                              recommendations.




                                                    5
Fiscal Year 2008 Financial Installation Audit –                                                  FF-AR-09-029
 Automated Postal Centers


                   APPENDIX B: AUTOMATED POSTAL CENTERS AUDITED
                      AND REPORTS ISSUED NATIONWIDE IN FY 2008


                                                                                                 Non-
                                                                         FY 2007      Monetary Monetary
Report Title and Number                                                  Revenue       Impact   Impact
xxx xxxx xxxxxx xxxxxxx xxxxxxxxx xxxxxx xxxxxx
                                                                          $174,739           -      $11,165
–xxxxxxxxxxx xxxxx, xxxxxxxxxx, xxxxxxxxxxxx
xxxxxxxx xxxxxx xxxxxxxxx xxxxxx xxxxxx –
                                                                            232,803          -              -
xxxxxxxxxx, xxxxxxxxxxxx, xxxxxxxxxxxx
xxxx xxxx xxxx xxxxxx xxxxxxxxx xxxxxx xxxxxx –
                                                                            163,569          -       22,539
xxxx xxxx, xxxxxxxxxx, xxxxxxxxxxxx
xxxxxx xxxx xxxxxxxxx xxxxxx xxxxxx – xxxxxx
                                                                            192,546          -       11,729
xxxx, xxxxxxxx, xxxxxxxxxxxx
xxxxxx-xxxxx xxxxxxx xxxxxxxxx xxxxxx xxxxxx –
                                                                            648,965          -        2,672
xxxxxx, xxxxx, xxxxxxxxxxxx
xxxxx xxxxxx xxxxxxxxx xxxxxx xxxxxx –
                                                                            315,412          -       17,719
xxxxx xxxxxx, xxxxxxxx, xxxxxxxxxxxx3
xxxxx xxxxxxxx xxxxxxxxx xxxxxx xxxxxx – xxxxx,
                                                                            120,744          -       27,255
xxxxxxxx, xxxxxxxxxxxx
xxxxxx xxxx xxxx xxxxxx xxxxxxxxx xxxxxx xxxxxx
                                                                            192,523          -              -
– xxxxxx, xxx xxxxxx, xxxxxxxxxxxx
xxxxxxxx xxxxxxxxx xxxxxx xxxxxx xx –
                                                                            191,699     $3,661       34,871
xxxxxxxx, xxxxxxxx, xxxxxxxxxxx3
xxxxxx xxxxxxxxx xxxxxx xxxxxx – xxxxxx, xxxxx
                                                                            159,555          -              -
xxxxxxxx, xxxxxxxxxxxx
xxxxxxx xxxxxxxxx xxxxxx xxxxxx – xxxxxxx, xxx
                                                                            237,599          -        6,607
xxxxxxxxx, xxxxxxxxxxxx
Total                                                                   $2,630,154      $3,661    $134,557




3
    The internal controls we examined were generally not in place and effective.



                                                            6
Fiscal Year 2008 Financial Installation Audit –                                          FF-AR-09-029
 Automated Postal Centers


               APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

This table presents the results of accountability examinations performed during the APC
audits, rounded to the nearest dollar. Shortages and overages presented are the total
value of all shortages and overages identified during the examination of each
accountability.

                                                            Total Value of    Total Value of All
                                Accountabilities           Accountability
       Unit Name
                                  Examined                    Per Clerk      Shortages Overages
                                                           Balance Report
xxx xxxx xxxxxx
                                                   1                $3,314           -      $11,172
xxxxxxx xxx
xxxxxxxx xxxxxx xxx                                1                10,782        $52               -
xxxx xxxx xxxx xxxxxx
                                                   1                22,539           -              7
xxx
xxxxxx xxxx xxxx
                                                   1                 8,937           -        3,992
xxxxxx xxx
xxxxxx-xxxxx xxxxxxx
                                                   3                47,166           7             15
xxx
xxxxx xxxxxx xxxx
                                                   2                34,116           -          955
xxxxxx xxx
xxxxx xxxxxxxx xxxx
                                                   1                57,298           -             30
xxxxxx xxx
xxxxxx xxxx xxxx
                                                   1                15,579           -              -
xxxxxx xxx
xxxxxxxx xxxx xxxxxx
                                                   2               103,983       3,661              -
xxx
xxxxxx xxxx xxxxxx
                                                   1                73,527           -          114
xxx
xxxxxxx xxxx xxxxxx
                                                   1                19,142        136               -
xxx
Total                                             15             $396,383       $3,856      $16,285




                                                       7
Fiscal Year 2008 Financial Installation Audit –                                FF-AR-09-029
 Automated Postal Centers


                                    APPENDIX D: DETAILED ANALYSIS

Stamp Accountability

The APC supervisors and/or service employees did not always follow prescribed
policies and procedures related to stamp accountability at the 11 units.
Specifically:

    •   At nine units, management did not complete a PS Form 3369-P, Consigned
        Credit Receipt, for the APC inventory.4

    •   At eight units, supervisors did not cancel or attach APC variable rate postage
        labels to the PS Form 3533, Application and Voucher for Refund of Postage,
        Fees, and Services.5

    •   At five units, management did not properly account for redeemed stamp stock.

             o One unit had not recorded the stock in the accounting records during prior
               examinations.

             o One unit had removed rejected stamps from the APC accountability during
               the credit examination.

             o One unit had not returned redeemed stock since its installation in 2005.

             o Two units did not properly process items obtained from the reject/retract
               cassettes during APC accountability examinations. Further, one of the
               unit’s employees stored redeemed stock and variable rate postage labels
               with examination records dating back to 2004.

        Postal Service policy requires employees to include the value of the redeemed
        stock from previous credit exams as part of the Storage Repository count.
        Employees are to return redeemed stock as a separate shipment following the
        same guidelines as redeemed stock returns for the retail window using the same
        return schedule.6

    •   At four units, supervisors did not maintain a PS Form 3368, Stamp Credit
        Examination Record.7

    •   At four units, supervisors did not use PS Form 3294-APC (draft), Automated
        Postal Center Stock Count and Summary.8

4
  Handbook PO-106, Section 542.2, page 24.
5
  Handbook PO-106, Section 63, page 38.
6
  Handbook PO-106, Section 63, page 38.
7
  Handbook PO-106, Section 67, page 45.



                                                  8
Fiscal Year 2008 Financial Installation Audit –                                  FF-AR-09-029
 Automated Postal Centers



    •   At four units, the APC supervisor and servicing employee did not fully document
        and sign the APC Credit Examination Results form.9

    •   At three units, supervisors did not conduct accountability examinations with a
        servicing employee and at the proper frequency.10

Stamp Security

The APC supervisors and/or service employees did not always follow prescribed
policies and procedures related to stamp security procedures at 10 units. Specifically:

    •   At eight units, management could not locate all APC keys.11

    •   At seven units, management did not maintain a log to account for the daily
        activity of the APC keys.12 Generally, supervisors stated they were not aware of
        the requirement.

    •   At four units, supervisors did not store APC stock separate from other
        accountabilities.13

    •   At three units, management did not secure APC keys in PS Form 3977.11

    •   At three units, supervisors retained an APC servicing key at all times, even when
        not on duty.12

Refunds

The APC supervisors and/or service employees did not always follow prescribed
policies and procedures related to refunds at six units. Specifically:

    •   At six units, management did not establish and maintain a folder to track APC
        reimbursements.14

    •   At four units, retail associates inappropriately issued cash or money order
        refunds for APC purchases.15



8
  Handbook PO-106, Section 63, page 38.
9
  Handbook PO-106, Section 662.2, page 43.
10
   Handbook PO-106, Section 61, page 35.
11
   Handbook PO-106, Section 552, page 28.
12
   Handbook PO-106, Section 554, page 29.
13
   Handbook PO-106, Section 551, page 28.
14
   Handbook PO-106, Section 812, page 61.
15
   Handbook PO-106, Section 844.1, page 64.



                                                  9
Fiscal Year 2008 Financial Installation Audit –                            FF-AR-09-029
 Automated Postal Centers


Training

At seven units, management did not properly assign and train the required number of
servicing employees on the operation and use of the APC. The APC Handbook
requires each APC location to have a minimum of four trained servicing employees.
The postmaster is responsible for completing PS Form 1782, Training Request and
Authorization, for all trained APC employees. Management must follow the National
Agreement training procedures, as outlined in Course Number 41202-99, Automated
Postal Center Training, and all servicing employees must complete training prior to
servicing the APC. Training must be in accordance with the APC Machine Service
Manual.16 Once the employee successfully completes training, management should
forward a completed PS Form 1782 to the district for processing. Unit management
stated either they were unaware of the training requirements or believed the brief
training during the APC installation was sufficient to satisfy the requirement.




16
     Handbook PO-106, Section 33, page 17.



                                                  10
Fiscal Year 2008 Financial Installation Audit –                                                                                                                                                             FF-AR-09-029
 Automated Postal Centers


                           APPENDIX E: CONTROL DEFICIENCIES REPORTED IN FY 2008
                     AUTOMATED POSTAL CENTER AUDITS AND IN PREVIOUSLY ISSUED REPORTS

The control deficiencies highlighted in gray are those that represent repeat conditions we considered significant in
previously issued reports.

                                                                                                                                                                                                             Number of APCs




                                                                xxxxxx xxxxxxx




                                                                                                                                xxxxx xxxxxxxx
                                                                                 xxxx xxxx xxxx




                                                                                                                                                               xxxxxxxx xxxx
                                                                                                  xxxxxx-xxxxx

                                                                                                                 xxxxx xxxxxx




                                                                                                                                                                                             xxxxxxx xxxx
                                                                                                  xxxxxxx xxx




                                                                                                                                                                xxxxxx xxx17
                                                                                  xxxxxx xxxx
                                                                                  xxxx xxxxxx




                                                                                                                  xxxx xxxxxx


                                                                                                                                  xxxx xxxxxx


                                                                                                                                                 xxxxxx xxxx
                                                                                                                                                 xxxx xxxxxx




                                                                                                                                                                               xxxxxx xxxx
                                                                                   xxxxxx xxx
                                                                  xxxxxx xxx




                                                                                                                                                                               xxxxxx xxx


                                                                                                                                                                                              xxxxxx xxx
                                                                                                                                                                                                              With Reported




                                                                   xxxxxxxx
                                                                   xxx xxxx




                                                                                                                     xxx17
                                                                     xxxx
                                                                                                                                                                                                            Control Deficiency




                                                                                       xxx




                                                                                                                                      xxx



                                                                                                                                                     xxx
                                                                                                                                                                                                             FY     FY     FY
Description of Control Deficiency                                                                                                                                                                           2008 2006 2005
Number of APCs Audited Each Year                                                                                                                                                                            1118   1419    1020
Stamp Accountability
The unit did not complete PS Form 3369-P.                                 X       X      X           X               X              X               X             X               X                           9      8      7
The supervisors did not properly manage APC variable rate
                                                                                  X      X           X               X              X               X             X                             X             8      4      2
postage labels collected from the reject/retract cassette.
The unit did not properly account for redeemed stamp stock.       X                      X                                          X                             X                             X             5      3      2
The supervisors did not maintain a PS Form 3368.                                         X           X               X              X                                                                         4      8      -
The supervisors did not use PS Form 3294-APC to document
                                                                                  X      X                                                          X             X                                           4      -      5
accountability examinations.
The supervisor and servicing employee did not fully
                                                                                                     X               X              X                                             X                           4      1      -
document and sign the APC Credit Examination Results.
The supervisors did not conduct accountability examinations
                                                                                         X           X               X                                                                                        3      6      2
at the proper frequency.
The supervisor did not conduct accountability examinations
                                                                                  X      X                                                                        X                                           3      1      -
with a servicing employee.
The supervisor did not monitor the APC pager during
                                                                                  X                                                                               X                                           2      -      -
business hours.
The supervisor did not remain with the kiosk and storage
repository inventories at all times during the accountability                     X                                                                                                                           1      -      -
examination.
The unit did not conduct independent stock counts in
                                                                                                                                                    X                                                         1      1      2
response to stock related service alerts.




17
   The internal controls we examined were generally not in place and effective.
18
   In this FY 2008 report, we consider the conditions that occurred at three or more units as significant.
19
   In FY 2006, we considered conditions that occurred at five or more units as significant and included them in the body of the report.
20
   In FY 2005, we listed all conditions that occurred and included them in the body of the report.

                                                                                       11
Fiscal Year 2008 Financial Installation Audit –                                                                                                                                                                                                             FF-AR-09-029
 Automated Postal Centers




                                                                                                                                           xxxxxx-xxxxx xxx
                                                                                                                                                                                                                                                             Number of APCs




                                                                  xxx xxxx xxxxxx




                                                                                                                         xxxxxx xxxx xxx




                                                                                                                                                                                              xxxxxx xxxx xxx
                                                                                                                                                                             xxxxx xxxxxxxx
                                                                                                   xxxx xxxx xxxx




                                                                                                                                                                                                                xxxxxxxx xxx17
                                                                                    xxxxxxxx xxx




                                                                                                                                                              xxxxx xxxxxx




                                                                                                                                                                                                                                              xxxxxxx xxx
                                                                                                                                                                                                                                 xxxxxx xxx
                                                                                                                                                                                                                                                              With Reported




                                                                                                                                                                  xxx17
                                                                        xxx




                                                                                                         xxx




                                                                                                                                                                                   xxx
                                                                                                                                                                                                                                                            Control Deficiency
                                                                                                                                                                                                                                                             FY    FY      FY
Description of Control Deficiency                                                                                                                                                                                                                           2008 2006 2005
Number of Sites Audited Each Year                                                                                                                                                                                                                           1118   1419    1020
Stamp Security
The supervisor could not locate APC keys.                                           X                 X                  X                 X                                    X             X                   X                           X              8       -      -
Unit management did not maintain a log to account for the
                                                                                                      X                  X                 X                     X              X             X                   X                                          7      9       4
daily activity of the APC keys.
The unit did not store the APC stock separate from other
                                                                                                      X                                                          X                            X                   X                                          4      5       2
accountabilities.
The unit did not secure APC keys in PS Form 3977.                                                     X                                                                         X             X                                                              3      10      2
The supervisor retained an APC servicing key at all times,
                                                                                                                                           X                     X                                                X                                          3      1       -
even when not on duty.
Unit management stored one APC key inside an unlocked
                                                                                                                                           X                                                                                                                 1       -      -
walk-in vault accessible to all employees.
The unit did not safeguard the safe combinations.                                                                                                                                                                 X                                          1       -      -
Refunds
The supervisor did not establish and maintain a folder to track
                                                                                                      X                  X                 X                     X              X             X                                                              6      6       3
APC reimbursements.
Retail associates inappropriately issued cash or money order
                                                                                                      X                  X                 X                     X                                                                                           4      2       4
refunds for APC purchases.
Training
Unit management did not properly assign and train the
required number of servicing employees on the operation and                                           X                  X                 X                     X              X                                 X                           X              7      -21     -
use of the APC.
Other
Unit management posted an unauthorized handwritten sign
                                                                                                                                           X                                                                                                                 1       -      -
on the APC units.




21
     Postal Service policy did not require a minimum number of employees to be trained at the time of this audit.


                                                                                                                    12
Fiscal Year 2008 Financial Installation Audit –                    FF-AR-09-029
 Automated Postal Centers




                               APPENDIX F: MANAGEMENT’S COMMENTS




                                                  13
